                   U.S. Department of Labor
                   Office of Inspector General
                         Office of Audit




               Financial and Performance Audit of
Community and Economic Development Association (CEDA)
                of Cook County, Inc.
               Welfare-to-Work Competitive Grant
                         For the Period
           January 4, 1999 through December 31, 2000




                                      Audit Report No. 05-02-002-03-386
                                      Date Issued: March 26, 2002
CEDA Welfare-to-Work Competitive Grant




                                      Table of Contents

                                                                       Page

Acronyms                                                                  ii

Executive Summary                                                        iii

Background                                                               1

Objective, Scope and Methodology                                         3

Findings and Recommendations                                             5

       1. Unallowable Costs                                              5
       2. Incomplete Applications and Misclassified Participants         9
       3. Noncompliance with Grant Requirements                         12

Appendix A - Grantee Response                                           16




DOL-OIG Report No. 05-02-002-03-386                                i
CEDA Welfare-to-Work Competitive Grant




                                         Acronyms


AFDC           Aid to Families with Dependent Children
CEDA           Community and Economic Development Association of Cook County, Inc.
CFR            Code of Federal Regulations
DOL            Department of Labor
IDHS           Illinois Department of Human Services
MIS            Management Information System
OMB            Office of Management and Budget
SPO            Standing Payroll Order
QFSR           Quarterly Financial Status Report
TANF           Temporary Assistance for Needy Families
WtW            Welfare-to-Work




DOL-OIG Report No. 05-02-002-03-386                                           ii
CEDA Welfare-to-Work Competitive Grant




                                      Executive Summary

The Office of Inspector General conducted a financial and performance audit of the Welfare-to-
Work (WtW) Competitive Grant awarded to Community and Economic Development Association
(CEDA) of Cook County, Inc. Our audit objectives were to determine the allowability of selected
claimed costs, the eligibility of selected WtW participants, and whether the grantee is in compliance
with the major requirements of the grant.

CEDA reported $3,101,140 in support of 700 participants for the period January 4, 1999 through
December 31, 2000. We tested a judgmental sample of staff salaries and fringe benefits, as well
as administrative, program, and service provider costs, totaling $1,403,761. We tested 60
participants= program eligibility. We also reviewed the grantee’s compliance with the grant
requirements and principal criteria. However, our selective testing was not designed to express an
opinion on CEDA’s Quarterly Financial Status Report (QFSR).

We found:

    •   unallowable costs totaling $86,519;
    •   two incomplete applications and 12 misclassified participants; and
    •   a lack of compliance with grant reporting and allocation requirements.

In summary, we recommend that the Assistant Secretary for Employment and Training:

    •   recover questioned costs of $66,640;
    •   ensure that corrections totaling $19,879 are made to the QFSR for a supplemental
        worker’s compensation premium and WIC computer equipment;
    •   ensure that no additional overcharges to indirect costs have been made since
        December 31, 2000; and
    •   direct CEDA to report accurate participant numbers and accurate financial information on
        the QFSR, and correct management information system (MIS) inaccuracies.

Our complete detailed findings and recommendations are contained in the body of the report
starting on page 5.

CEDA officials concurred with our findings and described the corrective measures they plan to
implement. Their complete response to our draft report is included as Appendix A.



DOL-OIG Report No. 05-02-002-03-386                                                      iii
CEDA Welfare-to-Work Competitive Grant




                                          Background


                         The Personal Responsibility and Work Opportunity Reconciliation Act of
  Objective of
                         1996 established the Temporary Assistance for Needy Families (TANF)
 Welfare-to-Work
                         program. The TANF provisions substantially changed the nation=s welfare
                         system from one in which cash assistance was provided on an entitlement
basis to a system in which the primary focus is on moving welfare recipients to work and promoting
family responsibility, accountability and self-sufficiency. This is known as the Awork first@
objective.

Recognizing that individuals in TANF may need additional assistance to obtain lasting jobs and
become self-sufficient, the Balanced Budget Act of 1997 amended certain TANF provisions and
provided for WtW grants to states and local communities for transitional employment assistance,
which moves hard-to-employ TANF welfare recipients into unsubsidized jobs and economic self-
sufficiency.

The Welfare-to-Work and Child Support Amendments of 1999 allow grantees to more effectively
serve both long-term welfare recipients and noncustodial parents of low-income children.

Of the $3 billion budgeted for the WtW program in Fiscal Years 1998 and 1999,
$711.5 million was designated for award through competitive grants to local communities.

    CEDA’s             On January 4, 1999, CEDA received a 24-month WtW competitive grant
 Competitive Grant     in the amount of $4,999,302. The period of performance was January 4,
                       1999 through December 30, 2000. The first grant modification, effective
                       October 23, 2000, realigned grant budget line items and extended the
Period of Performance through December 30, 2001.

The grant application=s service strategy includes creation and expansion of accessible
transportation services, improved accessibility to child care services, integrated work and learning
skills development, family-focused assistance, proactive employer involvement, partnerships with
child and family assistance services, and collaboration with the local welfare system in order to
place 600 participants in unsubsidized employment.




DOL-OIG Report No. 05-02-002-03-386                                                      1
CEDA Welfare-to-Work Competitive Grant




    Noteworthy          CEDA staff, co-located in One-Stop Centers with the Illinois Department
   Accomplishment       of Human Services (IDHS) the TANF agency staff, has access to the
                        TANF Management Information System (MIS) and can verify the TANF
                        status of the WtW participants. As a result, all of the files in our eligibility-
testing sample contained documentation of the participants’ TANF status. This is noteworthy
because two other WtW competitive grantees we recently audited were unable to obtain complete
and accurate TANF and/or AFDC data from the IDHS local offices.

                        In addition to the provisions of the Balanced Budget Act of 1997, the U.S.
  Principal Criteria    Department of Labor (DOL) issued regulations found in
                        20 CFR 645. Interim Regulations were issued on November 18, 1997.
Final Regulations were issued on January 11, 2001, and became effective April 13, 2001. Also,
on April 13, 2001, a new Interim Final Rule became effective, implementing the Welfare-to-Work
and Child Support Amendments of 1999. This resulted in changes in the participant eligibility
requirements for competitive grants, effective January 1, 2000.

As a nonprofit, CEDA is required to follow general administrative requirements contained in Office
of Management and Budget (OMB) Circular A-110, which is codified in DOL regulations at 29
CFR 95, and OMB Circular A-122 requirements for determining the allowability of costs.

                       In September 1999, we issued a report (Number 05-99-020-03-386) on
 Postaward Survey      the results of a postaward survey of 12 second-round competitive
                       grantees. CEDA was included in that review. During this audit, we
followed up on our concerns identified in the postaward survey. In general, based on our audit
work, these concerns were not adequately addressed (See Findings and Recommendations).

                                               BBBBB

This report is intended solely for the information and use of the management of the
U.S. Department of Labor, the Employment and Training Administration and CEDA, and is not
intended to be and should not be used by anyone other than these specified parties.




DOL-OIG Report No. 05-02-002-03-386                                                          2
CEDA Welfare-to-Work Competitive Grant




                           Objective, Scope and Methodology


                        The objectives of this financial and performance audit were to determine
      Objective         the allowability of selected claimed costs, the eligibility of selected
                        participants, and whether the grantee is in compliance with the major
                        requirements of the WtW grant.

  Audit Scope and       Our audit included financial and program activities that occurred from
   Methodology          January 4, 1999 through December 31, 2000. Our review of management
                        controls was limited to financial management at the grantee level. We did
                        not audit performance measurements at CEDA.

As part of our audit planning, we conducted a vulnerability assessment of the financial management,
participant eligibility, cost allocation and procurement processes to determine if we could limit the
audit procedures in any of these areas. As a result of the vulnerability assessment, we designed our
sampling methodology. Our testing used judgmental sampling. We are not intending that our
testing is a representative sample, nor are we projecting to the entire universe of financial
transactions or participants. In addition, our selective testing was not designed to express an
opinion on CEDA’s QFSR.

Of the $3,101,140 claimed costs reported on the QFSR as of December 31, 2000, we selected
77 transactions for audit totaling $1,403,761. These transactions included staff salaries and fringe
benefits, administrative expenditures, program costs, and service provider costs.

Although CEDA reported 700 participants on the QFSR as of December 31, 2000, we reviewed
CEDA’s MIS and determined the adjusted universe of participants served was 731. We then
selected a sample of 60 participants – 30 enrolled before January 1, 2000 and 30 enrolled from
January 1, 2000 through December 31, 2000. This was necessary because of a change in
participant eligibility requirements, effective January 1, 2000.

During our audit, we reviewed compliance with the grant requirements and principal criteria cited
on page 2.




DOL-OIG Report No. 05-02-002-03-386                                                      3
CEDA Welfare-to-Work Competitive Grant




As part of our audit, we interviewed CEDA officials. We also obtained and reviewed grantee
policies and procedures, participant files, accounting records, and source documentation, such as
contracts, invoices and payrolls to support claimed costs.

We conducted our audit in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. We conducted fieldwork from April 23, 2001 to
August 10, 2001, at the offices of CEDA.




DOL-OIG Report No. 05-02-002-03-386                                                    4
CEDA Welfare-to-Work Competitive Grant




                            Findings and Recommendations


                                   1. Unallowable Costs


Our audit disclosed that CEDA claimed a total of $86,519 in unallowable costs.

According to OMB Circular A-122, Attachment A, Section A:

   2. . . . To be allowable under an award, costs must meet the following general criteria:
            a. Be reasonable for the performance of the award and be allocable thereto
                under these principles. . . .
            g. Be adequately documented. . . .
   4. Allocable costs.
            a. A cost is allocable to a particular cost objective…in accordance with the
                relative benefits received. . . .

A. Contract Start-up Costs

CEDA paid $38,914 in start-up costs to the Academic and Employment Training Corporation
under a contract for a collaborative community-based employment program. These costs included
rent, salaries and electronic equipment. CEDA WtW participants never received any services
under this contract and no documentation was received to support these costs.

Since no services were received, these costs of $38,914 are not reasonable or allocable and,
therefore, are not allowable.

CEDA officials concurred with our finding. They stated they have consulted their attorney and are
pursuing legal action against the contractor.

B. Cell Phones

Our sample of financial transactions included two cell phone bills for the months of September
($5,003) and October ($5,577) of 1999. The cell phone costs were to be allocated to the WtW
program based on the percentage of the employee’s salary that was allocated to WtW. Our audit


DOL-OIG Report No. 05-02-002-03-386                                                    5
CEDA Welfare-to-Work Competitive Grant




showed that WtW was overcharged by $3,268 for these two months. WtW was charged for the
full cost of cell phones for employees who only worked part-time on WtW, employees who did
not work on WtW at all, and employees who had not yet started working on WtW at the time of
the billing. Thus, these costs were not allocated in accordance with the relative benefits received.

CEDA officials concurred with our finding. They stated they went back and removed the costs for
those employees who worked part-time on WtW, for those employees whose cell phone costs
were inappropriately allocated to the WtW program, and for those employees who had not yet
started working on WtW at the time of billing.

C. Supplemental Worker’s Compensation

CEDA also allocated costs of $425 to WtW for a supplemental worker’s compensation premium.
 This premium, although billed and paid during August and September 1999, was for the period
July 31, 1997 through July 31, 1998. The WtW grant did not start until January 4, 1999. During
our fieldwork, CEDA gave us documentation of a journal entry taking this cost out of the WtW
account subsequent to our audit period.

CEDA officials concurred with our finding. They stated that CEDA is recalculating and adjusting
all QFSR reports from the inception of their WtW program to the end date, December 31, 2001.
In recalculating and completing revised QFSRs, CEDA will ensure that this cost is removed from
the QFSR.

D. Computer Equipment

During our testing of financial transactions, we also noted a charge to WtW for $19,454 for
computer equipment. The documentation supporting this expense clearly states that this equipment
was for the WIC program, not WtW. CEDA also gave us documentation of a journal entry
correcting this charge subsequent to our audit period.

CEDA officials concurred with our finding. They stated that in recalculating and completing revised
QFSRs, CEDA will ensure that this cost is removed from the QFSR.




DOL-OIG Report No. 05-02-002-03-386                                                      6
CEDA Welfare-to-Work Competitive Grant




E. Indirect Costs

CEDA has been applying its approved indirect cost rate incorrectly. CEDA’s indirect cost rate
agreement, approved by the U.S. Department of Health and Human Services, contains a
predetermined indirect cost rate of 9.7 percent. The agreement further states that the rate is to be
applied to the total direct costs excluding capital expenditures. Capital expenditures are defined as
buildings, individual items of equipment, alterations and renovations. Equipment is defined as an
article of nonexpendable, tangible personal property having a useful life of more than one year and
an acquisition cost of $500 or more per unit. CEDA applied the indirect cost rate to the total
direct costs for WtW without excluding the individual items of equipment. This overstates the
indirect costs for the WtW grant.

Excluding the individual items of equipment, we recalculated the indirect costs through December
31, 2000, to be $249,754. This is $24,458 less than the $274,212 charged to the grant by
CEDA, calculated as follows:



                                      Questioned Indirect Costs
                                                            Indirect Costs per    Difference -
                                                           Accounting Records     Questioned
                                                             as of 12/31/000          Cost

      Total Direct Costs as of 12/31/00       $2,826,929

      Less Cost of Equipment as of
                                                 252,141
      12/31/00
      Adjusted Base                           $2,574,788
      Indirect Cost Rate                          9.70%

      Indirect Cost Calculated per Audit        $249,754               $274,212       $24,458



CEDA officials concurred with our finding. They stated they will provide a journal entry that
documents the correct allocation of the indirect cost rate. In recalculating and completing the
revised QFSRs, CEDA will ensure that the cost is removed from the QFSR.




DOL-OIG Report No. 05-02-002-03-386                                                      7
CEDA Welfare-to-Work Competitive Grant




Summary

In summary, we questioned a total of $86,519, as follows:


                                                                        Questioned
                       Reason Questioned                  Part   Page
                                                                          Costs
              No Services Received                         A      5         $38,914
              Improper Allocation - Cell Phones            B      5           3,268
              Improper Allocation - Indirect Costs         E      6          24,458
                                               Subtotal                     $66,640
              Charges corrected by journal entry,
              which must be verified, or recovered:
              Costs Before Grant Period                    C      6             425
              Costs for Another Program                    D      6          19,454
                                                 TOTAL                      $86,519




Recommendation

We recommend that the Assistant Secretary for Employment and Training:

   •   recover questioned costs of $66,640;
   •   ensure that the correction of the $425 charge for a supplemental worker’s compensation
       premium before the start of the grant is reflected in the QFSR, or recover $425;
   •   ensure that the correction of the $19,454 charge for computer equipment for the WIC
       program is reflected in the QFSR, or recover $19,454; and
   •   ensure that no additional overcharges to indirect costs have been made since
       December 31, 2000.




DOL-OIG Report No. 05-02-002-03-386                                                   8
CEDA Welfare-to-Work Competitive Grant




           2. Incomplete Applications and Misclassified Participants


CEDA has not accurately reported the number of participants served. On the
December 31, 2000, QFSR, CEDA reported a total of 700 participants served – 400 required
beneficiaries (70 percent classification) and 300 other eligibles (30 percent classification).

20 CFR 645.240 (d) Participant reports, states:

       . . . Each grant recipient must submit participant reports to the Department.
       Participant data must be aggregate data, and, for most data elements, must be
       cumulative by fiscal year of appropriation.

At the start of our audit work, CEDA was unable to provide a printout of the participants from its
Management Information System (MIS), due to technical difficulties. They then provided us with a
spreadsheet and manual lists of participants from each of its centers, which were used to complete
the QFSR. However, these did not match the numbers reported on the QFSR. After resolving its
technical difficulties with the MIS and comparing the MIS with the center lists, CEDA provided a
printout that showed the total number of participants served as of December 31, 2000 as 743.
We found that there were 12 duplicate participants in the MIS bringing the total number down to
731 – 437 required beneficiaries and 294 other eligibles. CEDA indicated that they purposely
underreported the number of participants to be conservative.

We used 731 as the universe of participants from which to select a sample of 60 participants to
test eligibility – 30 enrolled before January 1, 2000 and 30 enrolled from January 1, 2000 through
December 31, 2000. This was necessary because of a change in participant eligibility requirements
effective January 1, 2000.

The eligibility testing disclosed 2 participants on the MIS who, although the IDHS referred them,
never completed the application process. As a result, no services were provided to them and they
should not be included in the MIS or on the QFSR as a participant served.

The eligibility testing also disclosed 12 participants on the MIS who were misclassified under the
70 percent participant classification and should have been under the 30 percent participant
classification. Eleven of these 12 participants were enrolled prior to      January 1, 2000, and 1
was enrolled after January 1, 2000.



DOL-OIG Report No. 05-02-002-03-386                                                    9
CEDA Welfare-to-Work Competitive Grant




The regulations at 20 CFR 645.212 (a) (2) effective prior to January 1, 2000, state in part that in
order to be eligible under the 70 percent provision:

        . . . at least two of the three following barriers to employment must apply to the
        individual . . .

The regulations at 20 CFR 645.212 (a) (1) effective January 1, 2000 state in part that in order to
be eligible under the 70 percent provision the individual:

        . . . is currently receiving TANF assistance under a State TANF program, and/or
        its predecessor program for at least 30 months. . . .

The files of the 11 participants enrolled prior to January 1, 2000, documented only one barrier to
employment, while the file for the participant enrolled after January 1, 2000 documented receipt of
TANF assistance but not for 30 months. Although these 12 participants did not meet the
requirements for the 70 percent participant category, they did meet the requirements for the 30
percent participant category and should have been classified as such. As a result, the expenditures
on the December 31, 2000, QFSR for the 70 percent participant category were overstated by
$49,620, and the expenditures for the 30 percent participant category were understated by the
same amount, calculated as follows:


           Total Expenditures per 12/31/00 QFSR                                $3,101,140
           Less Questioned Costs (See Finding 1)                                  $86,519
           Adjusted Expenditures                                               $3,014,621
           Number of Participants ( 731 less 2 incomplete applications)               729
           Average Cost per Participant                                            $4,135
           Misclassified Participants                                                  12
           Misclassified Costs                                                    $49,620

CEDA officials concurred with our finding. They stated CEDA will review the MIS to ensure its
accuracy and will transfer the costs for the misclassified participants. CEDA notes that some of
these individuals may have been enrolled under the 10 percent window provisions.

During our audit testing, we found no evidence of these participants being enrolled under the 10
percent window.



DOL-OIG Report No. 05-02-002-03-386                                                          10
CEDA Welfare-to-Work Competitive Grant




Recommendation

We recommend that the Assistant Secretary for Employment and Training direct CEDA to:

   •   report accurate participant numbers on the QFSR;
   •   ensure that the corrections for the duplicates, incomplete applications and misclassifications
       are corrected in their MIS and that the MIS is up-to-date and accurate; and
   •   transfer costs of $49,620 for the 12 misclassified participants from the 70 percent
       participant classification on the QFSR to the 30 percent participant classification.




DOL-OIG Report No. 05-02-002-03-386                                                      11
CEDA Welfare-to-Work Competitive Grant




                     3. Noncompliance with Grant Requirements


We found that CEDA did not comply with reporting and allocation requirements stipulated in the
grant.

A. Inaccurate QFSR Expenditure Allocations

While we were able to reconcile total WtW expenditures on the December 31, 2000, QFSR to
the financial records, individual categories of expenditures could not be reconciled. These included
70 percent and 30 percent expenditures, administrative expenditures, technology/computerization
expenditures, and the program activity expenditures. A similar condition was noted in our post-
award survey of CEDA and included in our report on the second round WtW competitive grants in
September 1999.

The CEDA accounting system never incorporated the QFSR expenditures reporting requirements.
These are important because of limitations on costs.

20 CFR 645.211 states:

        . . . may spend not more than 30 percent of the WtW funds allotted to or awarded
        to the operating entity to assist individuals who meet the “other eligibles” eligibility
        requirements. . . . The remaining funds allotted to or awarded to the operating
        entity are to be spent to benefit individuals who meet the “general eligibility” and/or
        “noncustodial parents” eligibility requirements. . . .

CEDA’s accounting system did not track costs based on the 70/30 percent classification. Instead,
the WtW Director completed the QFSR based on timesheets prepared by all full-time WtW
employees and on her personal knowledge of the program. The timesheets are completed every 2
weeks and record the amount of time spent on the 70 percent and 30 percent classification
participants and on the various program activities. Based on the last month of the quarter, the
Director calculates the percentage of the total time that was spent on the two classifications of
participants and allocates the total expenditures to the 70 and 30 percent classifications
accordingly. Again, in order to report conservatively, as long as the percentage for the 70 percent
category comes to at least 70 percent, the total expenditures



DOL-OIG Report No. 05-02-002-03-386                                                         12
CEDA Welfare-to-Work Competitive Grant




are reported on a straight 70/30 percent basis rather than the actual percentage calculated from the
timesheets.

These percentages were not always calculated correctly. For example, using the December 2000
timesheets that were provided to us, we calculated a 70/30 percent time split rather than the 72/28
percent split that the Director calculated.

By not using the timesheets for the entire quarter to allocate the expenditures and by not using the
actual percentages calculated from the timesheets, CEDA is not accurately reporting the 70/30
percent category expenditures on the QFSR.

Moreover, each time the QFSR is completed, the total cumulative expenditures are reallocated
based on the timesheets for the last month of the current quarter rather than allocating the current
quarter’s expenditures based on the timesheets for that quarter and adding that to the previous
QFSR totals. Since the percentages may change from quarter to quarter, reallocating the total
amount each time distorts the total amount expended for each classification.

In addition, CEDA did not properly allocate administrative costs. 20 CFR 645.235 (a) (2) states:

        The limitation on expenditures for administrative purposes under WtW competitive
        grants will be specified in the grant agreement but in no case shall the limitation be
        more than fifteen percent (15%) of the grant award.

20 CFR 645.235 (b) further states:

        The costs of administration are that allocable portion of necessary and allowable
        costs . . . for the administration of the WtW program and which are not related to
        the direct provision of services to participants. These costs can be both personnel
        and non-personnel and both direct and indirect.

The only cost that CEDA has reported on the QFSR under Federal Administrative Expenditures is
the indirect costs allocated to the grant. Administrative costs should include other expenses, such
as the salaries and related costs of staff performing oversight, coordination and monitoring
responsibilities related to the WtW program. Therefore, CEDA has underreported the
administrative expenditures and overstated the program expenditures.



DOL-OIG Report No. 05-02-002-03-386                                                       13
CEDA Welfare-to-Work Competitive Grant




Consequently, we are unable to determine if CEDA has exceeded the 15 percent administrative
cost limit for our audit period.

CEDA officials concurred with our finding. They stated that in recalculating and completing revised
QFSRs, CEDA will recalculate the 70/30 percent splits based on all timesheets for the quarter and
add the amount to the previous quarter. In addition, CEDA will report all administrative
expenditures.

B. Unsupported Salary Allocations

During our testing of payroll transactions we found that each CEDA employee has a Standing
Payroll Order (SPO) on file that indicates what percentage of their salary is to be charged to the
various CEDA programs. The SPO is entered into the payroll system and the salary costs are
automatically allocated to the programs indicated on the SPO.

Attachment B.7.m of OMB Circular A-122 states:

            (1) . . . The distribution of salaries and wages to awards must be supported by
                personnel activity reports. . . .

            (2) (a) The reports must reflect an after-the-fact determination of the actual
                activity of each employee. Budget estimates . . . do not qualify as support
                for charges to the awards.

The SPOs for the WtW employees are based on estimates made by management of the amount of
time the employee will be working on WtW. Because the SPOs are based on estimates, not after-
the-fact activity reports, we have no assurance that the amount that was allocated for salaries
reflects the amount of time that was actually worked on the program.

CEDA officials concurred with our finding and stated that salary allocations will be based on after-
the-fact personnel activity reports.




DOL-OIG Report No. 05-02-002-03-386                                                      14
CEDA Welfare-to-Work Competitive Grant




Recommendation

We recommend that the Assistant Secretary for Employment and Training direct CEDA to:

   •   ensure that if the 70/30 percent classification allocation is to be based on timesheets, then
       timesheets for the entire quarter are used for the calculation, accurate documentation to
       support the allocation percentages is maintained, and the actual percentages that were
       calculated from the timesheets are used to complete the QFSR;
   •   allocate each quarter’s expenses based on the percentages for that quarter only and add
       that amount to the previous QFSR to arrive at the amount for the current QFSR;
   •   report all administrative expenditures, not just the indirect costs, on the QFSR Federal
       Administrative Expenditures line; and
   •   base salary allocations on after-the-fact personnel activity reports rather than management
       estimates.




DOL-OIG Report No. 05-02-002-03-386                                                      15
CEDA Welfare-to-Work Competitive Grant




                                                             Appendix A




                                         CEDA
                                  Response to Draft Report




DOL-OIG Report No. 05-02-002-03-386                           16
CEDA Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-02-002-03-386      17
CEDA Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-02-002-03-386      18
CEDA Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-02-002-03-386      19
